No.19-__
IN THE

~up~eme

<!Court of tbe Wntteb ~tates

TAKEDA PHARMACEUTICAL COMPANY LIMITED,
TAKEDA PHARMACEUTICALS USA, INC.
AND ELI LILLY AND COMPANY,

Petitioners,
v.
PAINTERS AND ALLIED TRADES DISTRICT
COUNCIL 82 HEALTH CARE FUND, et al.,

Respondents.

CERTIFICATE OF SERVICE

I, Jonathan S. Franklin, a member of the Bar of this Court, certify that on
this 26th day of February, 2020, three copies of the Petition For A Writ Of
Certiorari were sent by first class mail, postage prepaid, to:
Brent Wisner
Baum Hedlund Aristei & Goldman PLC
10940 Wilshire Boulevard, 17th Floor
Los Angeles, CA 90024
(310) 820-6231

Counsel for Respondents Painters and
Allied Trades District Council 82
Health Care Fund, Annie M. Snyder,
Rickey D. Rose, John Cardarelli,
Marlyon K. Buckner, and Sylvie
Bigord
I further certify that all parties required to be served have been served.

I

J

athan S. Franklin
ORTON ROSE FULBRIGHT US LLP
799 9th Street, N.W., Suite 1000
Washington, D.C. 20001
(202) 662-0466

Counsel of Record for Petitioners

2

